-?558
No.

N —» —\

*

.

i

l •

i

♦

iJ

li U

t _l LJ

\-4 L- J

fc*tl

t-

IN THE
supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

MAR t 6 2021
OFRCEOFTHECLERK

Kesha S. Packer

— PETITIONER

(Your Name)

vs.
Wisconsin Department of Corrections

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Seventh Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Kesha Packer
(Your Name)
P.0 Box 2031
(Address)
Roswell, GA 30076
(City, State, Zip Code)
414-614-0333
(Phone Number)

RECEIVED
mar 2 4 2021
^mBFco^CrLERsK

QUESTIONS) PRESENTED

1. Whether the United States Court of Appeals has jurisdiction to hear the plaintiff’s
appeal?
2. Whether the plaintiff notified the Courts she was appealing the order issued by the United
States District Court Eastern District of Wisconsin?
3. Whether the plaintiff notified the Courts in a timely manner that she was appealing the
order issued by the United States District Court Eastern District of Wisconsin?
4. Whether the plaintiff encountered several incidents out of her control that fall under the
law as excusable neglect that should have been reviewed by the United States Court of
Appeals and/or United States District Court Eastern District of Wisconsin?

LIST OF PARTIES

jX] All parties appear in the caption of the case on the cover page.
[ . ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

V.

RELATED CASES
Kesha S. Packer v. Wisconsin Department of Corrections, No. 18-CV-2024-JPS, U.S. District Court for the Eastern
District of Wisconsin. Judgment entered Oct. 1, 2020.
Kesha S. Packer v. Wisconsin Department of Corrections, No. 20-2584, U.S. States Court of Appeals for the Seventh
Circuit. Judgment entered Nov. 10, 2020.

■\

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONSINVOLVED

3

STATEMENT OF THE CASE

4,5

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

7

INDEX TO APPENDICES

APPENDIX A

Decision of the United States Court of Appeals

APPENDIX B

Decision of the United States District Court

APPENDIX C

v
Judgment of the United States District Court

APPENDIX D

Letter from United States Court of Appeals

APPENDIX E

Email Correspndence from Chief Clerk of the United States Court of Appeals

APPENDIX F

Notice of Case Opening

TABLE OF AUTHORITIES CITED
\

CASES
PAGE NUMBER
See Prizevoits v. Indiana Bell Tel. Co., 1996 U.S
5
See Smith v. Barry, 502 U.S. 244
5

STATUES AND RULES
Fed. R. App. P. 4. Fed. R. App. P. 3(c),

/

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
IXl For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix__A__to
the petition and is
[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
B__ to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
1x1 is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
5 or,
f ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION

X For cases from federal courts:
The date on which the United States Court of Appeals decided my case
November 10, 2020
was
XI No petition for rehearing was timely filed in my case.
[ 3 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) on
(date)
to and including____ „
in Application No. __ A
"The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appeal’s at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
to and including____
(date) on
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUIONAL AND STATUTORY PROVISIONS INVOLVED
BUI of Rights
The First Amendment - Freedom of Assembly and Petition
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
The Fourteenth Amendment, Section 1
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.
Constitution of the United States
Article ni, Section 2
The Judicial Power shall extend to all Cases, in Law and Equity, arising under this Constitution,
the Laws of the United States, and Treaties made, or which shall be made, under their
Authority;—to aU Cases affecting Ambassadors, other public Ministers and Consuls;—to all
Cases of admiralty and maritime Jurisdiction;—to Controversies to which the United States shall
be a Party;—to Controversies between two or more States;—between a State and Citizens of
another State;—between Citizens of different States,—between Citizens of the same State
claiming Lands under Grants of different States, and between a State, or the Citizens thereof, and
foreign States, Citizens or Subjects.

3

STATEMENT OF THE CASE
The Plaintiff filed an entire appellate brief because of the final decision and order of the U.S.
District Court for the Eastern District of Wisconsin entered on June 16,2020 by the Honorable
Judge J.P. Stadtmueller. The United States Court of Appeals had jurisdiction to decide this case
pursuant to 42 U.S.C. § 2000.
Plaintiff received notice of the final order on 6/16/20 at 6:26 p.m. via email from Attorney Jeff
Olson, who was the plaintiffs counsel at the time of the order. Subsequently, after receiving the
order, the plaintiff was no longer represented by counsel and immediately became a pro se
litigant. Plaintiff as a pro se litigant, completed Affidavit Accompanying Motion for Permission
to Appeal in Forma Pauperis on 7/10/20, and then completed an Appellant Brief and Certificate
of Service on 7/11/20. The Affidavit Accompanying Motion for Permission to Appeal in Forma
Pauperis, Appellant Brief, and Certificate of Service were all filed and served upon the United
States Court of Appeals for the Seventh Circuit via United States Mail on 7/11/20, with USPS
estimated delivery date of 7/15/20. In addition, a copy of the Appellant Brief was served upon
counsel for the Appellee via United States Mail on 7/11/20, with USPS estimated delivery date
of 7/15/20, which was timely and within the required 30 days.
On August 17,2020, the plaintiff received an envelope from the Seventh Circuit Court which
contained the plaintiffs appellate brief, Affidavit Accompanying Motion for Permission to
Appeal in Forma Pauperis, and letter from the court. The appeal and Affidavit Accompanying
Motion for Permission to Appeal in Forma Pauperis was stamped “U.S.C. A- 7th Circuit
RECEIVED Jul 30 2020 1” and the letter addressed to plaintiff from the court was dated July 30,
2020. The letter indicated that "documents were being returned to plaintiff unfiled" and that
"plaintiff does not have a current appeal." Plaintiff called the Seventh Circuit Court immediately,
and subsequently spoke to Jim Richmond, Court Clerk, and informed him that the appeal was
returned and inquired as to why. Mr. Richmond provided plaintiff with his email address and
requested appeal and correspondence be scanned to him. The plaintiff did so immediately, and
scanned Mr. Richmond proof of the appeal mailed on 7/11/20. Mr. Richmond eventually told
plaintiff that he would have to go with the office date received stamp and then referred plaintiff
back to the Eastern District Circuit Court. On August 18,2020, the plaintiff completed and filed
Motion for Extension of Time and Reopening the Time to File an Appeal with the US Eastern
District Court and served upon the court via United States Mail on 8/18/20, with USPS estimated
delivery date of 8/21/20. Plaintiff filed the motion as directed even though the actual appellant
brief was filed timely in accordance Federal Law. On August 20,2020, the plaintiff was
informed by Mr. Richmond that the Eastern District Court received Motion for Extension of Time
and Reopening the Time to File an Appeal, and subsequently the plaintiff received
correspondence from the court indicating the same and citing that the Motion was filed 8/21/20.
The filing date for the one-page Notice of Appeal document is 8/21/20; however, the actual
appellant brief which cites the information that is on the NOA was completed and filed by the
plaintiff on July 11,2020, as explained above.
On November 10,2020, the United States Court of Appeals for the Seventh Circuit ordered that
the plaintiff appeal is DISMISSED for lack ofjurisdiction, citing that "The law requires that a
notice of appeal in a civil case be filed in the district court within 30 days of the entry of the
4

\

judgment or order appealed and, in this case, judgment was entered on June 16,2020, and the
notice of appeal was filed on August 20,2020,35 days late."

5

t

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

/KddAzLs
Datef

3/15/21

\

\

7.
'i

/
;
<o

V
\

OFFICE OF THE CLERK

Jlntfei: ^fafes Cmitf at ^jrpealg
<3for tJjt jleirenfJf Cimitf

*********

iSiJISSl ft, rv

219 S. DEARBORN STREET
CHICAGO, ILLINOIS 60604-1874

•*w*

araWSS

SM|#00008861
o,.p
1008.50°
§9
NOV 1 2 2020

OFFICIAL BUSINESS

iiSsilSiSlS MA!L€D FROMZIP CODE 60604

'y

«r‘

c/

—> /
•*-

••’r

V

F

i

/

20-2584

KeshaS. Packer
P.O. Box 2031
Roswell, GA 30077

\

/
l

